January 14, 2009


JAMES J. GALLAGHER
MANAGER, PHILADELPHIA METROPOLITAN DISTRICT

SUBJECT: Audit Report – Philadelphia Metropolitan District: Overall Equipment
         Effectiveness (Report Number DA-AR-09-003)

This report presents the results of our self-initiated audit of the effectiveness of
equipment maintenance in the Philadelphia Metropolitan District (Project Number
08YG031DA000). Based on fiscal year 2008 risk analysis data, the Philadelphia
Metropolitan District was among the districts most at risk for having low equipment
effectiveness. Our objective was to determine the cause of low overall equipment
effectiveness1 (OEE) at the Philadelphia and Southeastern Processing and Distribution
Centers (P&DC) in the Philadelphia Metropolitan District. See Appendix A for additional
information about this audit.

Opportunities to Improve Overall Equipment Effectiveness

The Philadelphia Metropolitan District ranked 77th of the 80 Postal Service districts for
OEE, as of June 30, 2008. During the 1-year period ending June 30, 2008, OEE
averaged 52.4 percent compared to the national average of 65.5 percent and the Postal
Service goal of 80 percent. This occurred because the Philadelphia Metropolitan
District did not meet targets for daily and weekly preventive maintenance of mail
processing equipment (MPE). In addition, excessive pieces at risk2 and reject3 rates
lowered the quality element of OEE and indicated opportunities for both maintenance
and operational functions to increase equipment performance. Addressing these issues
at mail processing sites could have lowered costs by an additional $5 million for the
year ending June 30, 2008, and would lower mail processing costs by $10 million over
the next 2 years. See Appendix B for our detailed analysis.

We recommend the Philadelphia Metropolitan District Manager:

1. Establish an action plan to increase equipment maintenance completion rates at the
   Philadelphia and Southeastern mail processing facilities.

2. Develop procedures to ensure compliance with letter mail operational standards for
   quality.

3. Ensure test decks are run while conducting preventive maintenance.
1
  OEE equals equipment availability multiplied by equipment performance efficiency multiplied by quality.
2
  Mail that was either rejected or missorted resulting in re-handling and increased costs.
3
  Rejects are machinable mail that machinery did not accept for a variety of reasons including mechanical failure, out
of sequence, and out of sort plan.
Philadelphia Metropolitan District:                                         DA-AR-09-003
 Overall Equipment Effectiveness



4. Establish a shared maintenance and operational action plan for minimizing Delivery
   Bar Code Sorter and Automated Flats Sorting Machine pieces at risk and reject
   rates at processing plants in the district.

Management’s Comments

Management agreed with the finding and recommendations relating to improving OEE.
Management has begun to correct maintenance deficiencies with the assistance of the
Eastern Area by dedicating a maintenance employee to oversee the completion of
maintenance requirements. This individual will use reports currently generated to
identify the principal reason(s) for failure to achieve norms so management can address
and remediate impediments. Management plans to complete their actions by February
9, 2009.

Management also clarified points that they believe impacted our monetary calculations.
In particular, management stated that the method for recording manual volumes
changed during the period of analysis and that the Automated Flats Sorting Machine
100 (AFSM 100) rejects are reworked through automation which would influence the
reported impact. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.

We acknowledge the Postal Service changed the method for calculating and recording
manual volume in the Web End of Run (WebEOR) system. However, this change does
not impact the average cost per thousand pieces and, therefore, does not alter the
monetary impact calculation. We extracted the cost per thousand pieces used in the
audit report from the Activity Based Costing (ABC) system which identifies and accounts
for all costs, not just workhours and volume.

We also acknowledge that management reprocesses flat rejects through automation
using the Upgraded Flats Sorting Machine 1000. However, our subsequent analysis
shows that flat mail flows4 to manual operations ranged from 4.5 to 15.3 percent of total
pieces handled, on average, at the Philadelphia P&DC. Likewise, flat mail flows to
manual operations ranged from 4.3 to 16.3 percent at the Southeastern P&DC.
Therefore, we believe automation reprocessing may not be as effective as management
indicates. As such, we believe the reported monetary impact is accurate and
conservative.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when

4
    WebEOR First Handled Pieces in Manual Operations – Flat Mail.


                                                         2
Philadelphia Metropolitan District:                                       DA-AR-09-003
 Overall Equipment Effectiveness

corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed. We will report $10,073,884 as funds put to better use
and $5,036,942 as unrecoverable questioned costs in our Semiannual Report to
Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, Director,
Engineering, or me at (703) 248-2100.


      E-Signed by Darrell E. Benjamin, Jr
      VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc:       Edward Gamache
          Katherine S. Banks




                                            3
Philadelphia Metropolitan District:                                           DA-AR-09-003
 Overall Equipment Effectiveness




                       APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

We identified mail automation risks in the Philadelphia Metropolitan District as part of
our initiative to conduct risk-based audits on a continuous basis. In particular we
identified low OEE in the district. OEE is an indicator of how well the Postal Service
maintains and operates MPE.

Key equipment used to process letter mail includes the Delivery Barcode Sorter (DBCS)
and DBCS Input Output Subsystem (DIOSS) that sort mail in carrier walk sequence,
eliminating the need for additional sorting at the delivery unit. For flat mail, the AFSM
100 is designed to streamline flats mail processing operations while significantly
reducing manual processing. Mail is processed manually when it is rejected by or
cannot be processed by machinery. Manual mail processing increases costs and may
not be as accurate and timely as automation.

Postal Service policies set standards for maintaining and effectively operating
equipment. Management maintenance orders outline the preventive maintenance
procedures districts must perform. Operational standards and guides give instructions
for increasing productivity, reducing missorted mail, and controlling costs.

The following three systems provide information to help management effectively and
efficiently operate equipment and process the mail.

   •   The WebEOR system reproduces, archives, and summarizes information
       captured during a mail processing run. WebEOR offers standard reports on
       operations, maintenance, and machine configuration data.

   •   The Mail Image Reporting System (MIRS) summarizes pieces at risk captured
       during a mail processing run. MIRS also offers a number of standard reports,
       including reports for operations, maintenance, and machine summary data.

   •   The ABC system provides detailed cost information on mail processing. The
       ABC system converts operational data into cost information to identify trends,
       spikes, and other anomalies and to support improvement targets at the plant
       level.




                                             4
Philadelphia Metropolitan District:                                           DA-AR-09-003
 Overall Equipment Effectiveness

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine the cause of low OEE at the Philadelphia and
Southeastern P&DCs in the Philadelphia Metropolitan District. To assess causes for
lower than expected OEE, we determined whether the Philadelphia Metropolitan District
met targets for preventive maintenance and machine reject rates associated with letter
and flat mail operations.

We visited the Philadelphia and Southeastern mail processing facilities and interviewed
plant personnel. In addition, we analyzed the maintenance completion rates for each
site within the Philadelphia Metropolitan District for DBCS and AFSM operations. To
test the effectiveness of maintenance completion, we reviewed letter mail gross
acceptance and reject rates as described in the Postal Service’s DBCS Standardization
Work Instruction Guide and flat mail gross acceptance and rejects as described in the
AFSM 100 - National Standardization Guide. To identify the cause of the issues, we
analyzed pieces at risk reports for each site in the Philadelphia Metropolitan District. To
calculate the monetary impact, we compared the Philadelphia Metropolitan District’s
mail processing costs to average mail processing costs at the national level, reviewed
the percentage of mailpieces processed manually at each site, and applied manual
handling rates recorded in the ABC system to excessive machine rejects.

We conducted this performance audit from August 2008 through January 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on December 9, 2008, and included their comments
where appropriate.




                                             5
Philadelphia Metropolitan District:                                              DA-AR-09-003
 Overall Equipment Effectiveness

PRIOR AUDIT COVERAGE

The OIG previously issued the following report relating to preventive maintenance and
reject rates associated with letter mail operations.


                                         Final
                       Report           Report          Monetary
  Report Title         Number            Date            Impact               Report Results
Fort Worth          DA-AR-08-009      August 29,       $14,214,603   The audit determined the Fort
District                              2007                           Worth District generally met targets
Equipment                                                            for preventive maintenance of letter
Maintenance                                                          MPE; however, opportunities
                                                                     existed to increase preventive
                                                                     maintenance completion rates to
                                                                     meet national standards at three of
                                                                     the district’s five mail processing
                                                                     sites. In addition, excessive reject
                                                                     rates indicated opportunities for
                                                                     both maintenance and operational
                                                                     functions to increase equipment
                                                                     performance to meet operational
                                                                     targets. Management concurred
                                                                     with our finding and
                                                                     recommendations.




                                                   6
Philadelphia Metropolitan District:                                                            DA-AR-09-003
 Overall Equipment Effectiveness

                               APPENDIX B: DETAILED ANALYSIS

Philadelphia Metropolitan District Overall Equipment Effectiveness

OEE is an indicator of how well the Postal Service maintains and operates MPE. OEE
data extracted from the Enterprise Data Warehouse for the 12-month period ending
June 30, 2008, revealed the Philadelphia Metropolitan District ranked 77th out of the 80
Postal Service districts. The Philadelphia Metropolitan District’s OEE was 52.4 percent
compared to the national average of 65.5 percent and the Postal Service goal of 80
percent. Three critical elements of OEE are performance efficiency, availability, and
quality. Completing preventive maintenance according to standards and controlling
pieces at risk minimizes the level of mail rejects and improves the quality element of
OEE.

Increasing Preventive Maintenance Completion Rates Improves Overall
Equipment Effectiveness

Preventive maintenance is the scheduled, systematic inspection, examination, cleaning,
lubricating, adjusting, servicing, and custodial caretaking performed to retain the
functional capabilities of equipment. The objective is to improve and prolong equipment
life, avoid unplanned maintenance activity, and lower overall maintenance costs by
eliminating breakdown (reactive) maintenance and significantly reducing the number
and frequency of corrective maintenance actions.

Postal Service maintenance policy requires that daily and senior5 preventive
maintenance rates should be completed at or above 95 percent. As shown in Chart 1,
the Philadelphia Metropolitan District’s two processing plants completed daily preventive
maintenance routines for DBCSs at the expected 95 percent rate. However, neither site
met the expected 95 percent completion rate for their AFSMs.

                 Chart 1. Daily Preventive Maintenance Completion Rates
                                  (July 2007 - June 2008)

                                           # DBCS              DBCS        # AFSM         AFSM
           Mail Processing Facility       Machines           Percentage   Machines      Percentage
          Philadelphia P&DC                         55             99.2             7           88.7
          Southeastern P&DC                         27             99.3             3           88.6
          Nationwide Totals                     4,785              98.0          535            94.0




5
 Daily preventive maintenance is scheduled 2 to 7 days a week (some maintenance is required each day and other
maintenance is only scheduled every other day or less frequently during a week) and can be completed by less
experienced maintenance personnel. Senior preventive maintenance is scheduled less frequently and is completed
by more experienced personnel.




                                                         7
Philadelphia Metropolitan District:                                                                 DA-AR-09-003
 Overall Equipment Effectiveness


In addition, as shown in Chart 2, the two processing plants did not complete DBCS and
AFSM weekly senior preventive maintenance routines in accordance with Postal
Service maintenance policies.

                 Chart 2. Senior Preventive Maintenance Completion Rates
                                   (July 2007 - June 2008)

                Mail Processing             # DBCS          DBCS             # AFSM          AFSM
                     Facility              Machines       Percentage        Machines       Percentage
            Philadelphia P&DC                        55            89.9                7            84.1
            Southeastern P&DC                        27            90.5                3            88.6
            Nationwide Totals                    4,785             98.0             535             90.5 

According to MMO-013-05, Operational Maintenance Guidelines, it is imperative that all
personnel take an active role in maintaining MPE at optimum levels to ensure the Postal
Service receives the highest return on investment for mail processing systems and
improves service to its customers. Monitoring of the equipment during mail processing
is essential to ensure missorted and miscoded mail is held to a minimum and OEE is
maintained at the highest levels. This will reduce overall system downtime by correcting
minor problems before they become failures.

Pieces at Risk and Mail Rejects

To assess the effectiveness of maintenance performed, we analyzed equipment pieces
at risk and mail rejects6 at the Philadelphia Metropolitan District’s two processing plants.
Pieces at risk are any mailpieces sorted to bins other than the ones to which they were
assigned. The pieces at risk indicator is a measure of mailpieces that are at risk of not
reaching their destination in their allocated time. The primary component of mailpieces
at risk is rejected mail that results in manual rehandling.

In March 2007, the Postal Service established “At Risk and Out-of-Sequence Goals.”
Achieving these goals is critical for Postal Service performance and cost management
success. As shown in Chart 3, neither plant has met their target of 2 percent for
mailpieces at risk.




6
 Machinable mail rejected by the machinery due to a variety of reasons including mechanical failure, out of
sequence, and out of sort plan.


                                                          8
Philadelphia Metropolitan District:                                                                  DA-AR-09-003
 Overall Equipment Effectiveness

 

               Chart 3. Philadelphia Metropolitan District Mailpieces at Risk

                                                                          Mailpieces        Mailpieces
              Mail Processing          Machine         Mailpieces          At Risk            At Risk
                  Facility              Type           Fed (000)            (000)          (Percentage)
                                         DBCS              2,814,657          107,282               3.81
            Philadelphia P&DC
                                         AFSM                 373,831          30,137               8.06
                                         DBCS              1,730,023           57,015               3.30
            Southeastern P&DC
                                         AFSM                 199,414            9,634              4.83

           Source: MIRS 7/1/2007 – 6/30/2008

Postal Service operational standards7 also call for limiting DBCS rejects8 to
approximately 1 percent and AFSM rejects to 5 percent of total mailpieces fed. As
shown in Chart 4, both plants had excessive mailpiece rejects.

        Chart 4. Philadelphia Metropolitan District Letter and Flat Mail Rejects

             Mail Processing           Machine        Mailpieces         Mailpieces            Reject
                  Facility              Type          Fed (000)         Rejected (000)       Percentage
                                      DBCS               2,871,499                47,737               1.7
           Philadelphia P&DC
                                      AFSM                 373,831                34,343               9.2
                                      DBCS               1,725,599                20,684               1.2
           Southeastern P&DC
                                      AFSM                 199,414                11,192               5.6

         Source: EDW/EOR 7/01/07 – 6/30/2008

Limiting rejects to standard targets would reduce extra handling and the cost of mail
processing and also improve the quality element of OEE.

Causes

The Philadelphia P&DC maintenance manager indicated that poor maintenance
completion rates were primarily due to staff shortages or inexperienced personnel. This
was less prevalent at the Southeastern P&DC as they closely monitored automation
metrics for quality. At both plants, we observed that test deck runs9 were not always
completed when performing daily preventive maintenance. This, in turn, caused
inadequate equipment adjustments that resulted in excessive mailpieces at risk and
mailpiece rejects. Furthermore, poor mail flow and inadequately trained staff resulted in
mail being processed on non-designated machines and also contributed to excessive

7
  DBCS Standardization: Work Instruction Guide Mail Processing & Maintenance, Version 0.9, May 2006.
8
  Rejects percent used estimated at 1 percent (1 minus gross acceptance target rate of approximately 99 percent).
Gross acceptance rate (GAR) DPS target is 99.1 percent. GAR non-DPS target is 98.8 percent.
9
  Running test decks on MPE is an established practice that helps ensure the machine is functioning properly prior to
being turned over to operations.


                                                          9
Philadelphia Metropolitan District:                                                               DA-AR-09-003
 Overall Equipment Effectiveness

rejects. Finally, supervisors did not always perform the necessary preventive
maintenance inspections to ensure maintenance quality.

Opportunity to Further Lower Mail Processing Costs

Excessive machine rejects contribute to higher processing costs since the rejected
mailpieces are either re-handled or manually processed. As shown in Chart 5, the
Philadelphia P&DC has the greatest opportunity to lower mail processing costs. For the
1-year period ending June 30, 2008, the cost to process 1,000 mailpieces manually was
approximately $116.37 for letter mailpieces and $117.82 for flat mailpieces. For the
same period, the letter automation rate was about $8.68 per 1,000 mailpieces.
Recognizing the tolerance for rejects, the cost of excessive rejects10 for the same
annual period totaled about $5 million for the two Philadelphia mail processing sites.
Because the sites could have minimized rejects by following operational standards, we
will report $5,036,942 as unrecoverable questioned cost in our Semiannual Report to
Congress. Since these costs are also avoidable in the next 2 years, we will report
another $10,073,884 as funds put to better use in the Semiannual Report to Congress.

     Chart 5. Philadelphia Metropolitan District: Financial Impact of Machine Rejects

                                                                           Manual            Annual Cost of
                                                      Excess             Processing             Excess
        Mail Processing           Number of           Machine           Cost per 1,000        DBCS/AFSM
             Facility             Machines          Rejects (000)        Mailpieces             Rejects
                                   DBCS 55                   19,022             $137.33            $2,612,287
     Philadelphia P&DC
                                   AFSM 7                    15,651             $125.42             1,962,939
                                   DBCS 27                    3,428               $95.41              327,065
     Southeastern P&DC
                                   AFSM 3                     1,222             $110.21               134,650
     District Average                                                           $117.09
     National Average                                                           $112.66
                                            11
     Total Unrecoverable Questioned Costs                                                          $5,036,942
                                       12
     Funds Put to Better Use (2 Years)                                                            $10,073,884

Source: ABC System




10
   DBSC excess rejects are greater than 1 percent and AFSM excess rejects are greater than 5 percent of mailpieces
fed for the period July 1, 2007, through June 30, 2008.
11
   Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
12
   Funds that could be used more efficiently by implementing recommended actions.




                                                       10
Philadelphia Metropolitan District:                       DA-AR-09-003
 Overall Equipment Effectiveness

                      APPENDIX C. MANAGEMENT’S COMMENTS




                                      11
Philadelphia Metropolitan District:        DA-AR-09-003
 Overall Equipment Effectiveness




                                      12
Philadelphia Metropolitan District:        DA-AR-09-003
 Overall Equipment Effectiveness




                                      13
